           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




  ADMINISTRATIVE COSTS CLAIMED
      BY THE OHIO BUREAU OF
    DISABILITY DETERMINATION

     May 2005    A-05-04-14028




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   May 27, 2005                                                                   Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From:   Inspector General

Subject:Administrative Costs Claimed by the Ohio Bureau of Disability Determination
        (A-05-04-14028)

        OBJECTIVES
        The objectives of our audit were to evaluate the Ohio Bureau of Disability
        Determination’s (OH-BDD) internal controls over the accounting and reporting of
        administrative costs, determine whether costs claimed by the OH-BDD were allowable
        and funds were properly drawn, and assess limited areas of the general security
        controls environment. Our audit included the administrative costs claimed by the
        OH-BDD during Fiscal Years (FY) 2001 and 2002.

        BACKGROUND
        The Disability Insurance (DI) program was established in 1954 under Title II of the
        Social Security Act (Act). The program provides benefits to wage earners and their
        families in the event the wage earner becomes disabled. The Supplemental Security
        Income (SSI) program was created as a result of the Social Security Amendments of
        1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides a
        nationally uniform program of income to financially needy individuals who are aged,
        blind, and/or disabled.

        The Social Security Administration (SSA) is primarily responsible for implementing
        policies governing the development of disability claims under the DI and SSI programs.
        Disability determinations under both DI and SSI are performed by Disability
        Determination Services (DDS) in each State or other responsible jurisdictions. Such
        determinations are required to be performed in accordance with Federal law and
        underlying regulations.1 In carrying out its obligation, each DDS is responsible for



        1
            42 U.S.C. §§ 421 and 1383b; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – James F. Martin

determining claimants’ disabilities and ensuring that adequate evidence is available to
support its determinations.2 To assist in making proper disability determinations, each
DDS is authorized by SSA to purchase consultative examinations (CE), such as x-rays
and laboratory tests, to supplement evidence obtained from the claimants’ physicians or
other treating sources.3 See Appendix A for the scope and methodology of our audit.

The Ohio Rehabilitation Services Commission (OH-RSC) is the OH-BDD’s parent
agency. The OH-BDD is located in Columbus, Ohio.

RESULTS OF REVIEW
Our review of administrative costs disclosed that the OH-BDD claimed unallowable
indirect costs of $132,154. Furthermore, OH-BDD reported unliquidated obligations
totaling $1,782,112 that were not supported by sufficient documentation.

INDIRECT COSTS

For FYs 2001 and 2002, the indirect costs claimed by the OH-BDD were not in
accordance with the methodology outlined in the Cost Allocation Plans (CAP) approved
by the United States Department of Education.4 As a result, the OH-BDD claimed
unallowable indirect costs totaling $132,154 ($66,695 for FY 2001 and $65,459 for
FY 2002). According to the approved CAP, indirect costs chargeable to the OH-BDD
are calculated by applying a pre-approved rate times an appropriate base. The base
amount is defined as Direct Salaries, Wages and Fringe Benefits (Federal Codes
811 and 813) less Medical Consultant costs (Federal Code 812).5 We calculated the
indirect costs based on the methodology outlined in the approved CAP to arrive at the
unallowable indirect costs of $132,154 (see Appendix C).

The OH-BDD stated that the excessive indirect costs may have resulted from the
inappropriate inclusion of Direct State Payroll Related Costs (Federal Code 889) in the
base calculation or other financial-related adjustments. The OH-BDD should claim
indirect costs in accordance with the methodology outlined in the approved CAP.



2
    20 C.F.R. §§ 404.1603(c)(1) and 404.1614(a); 20 C.F.R. §§ 416.1003(c)(1) and 416.1014(a).
3
 20 C.F.R. §§ 404.1614(a) and 404.1624; 20 C.F.R. §§ 416.1014(a) and 416.1024; and
SSA POMS, DI 39545.001.A.3.
4
  State of Ohio Rehabilitation Services Commission, A Central Services Cost Allocation Plan: Fiscal Year
2004 (Budget) Fiscal Year 2002 (Actual) and A Central Services Cost Allocation Plan: Fiscal Year 2003
(Budget) and Fiscal Year 2001 (Actual), Departmental Indirect Cost Rate Proposal (Computation of
Indirect Rates).
5
 The OH-RSC and OH-BDD referred to Direct Salaries, Wages and Fringe Benefits as Federal Codes
811 and 813 and to Medical Consultants as Federal Code 812.
Page 3 – James F. Martin

We also found that the OH-BDD did not provide SSA with the quarterly
Form SSA-45136 Addendums as required by SSA instructions.7 If properly prepared,
the Addendum shows the indirect cost calculation (base times the rate), the method
used to calculate the base amount, and the details of financial-related adjustments. If
the OH-BDD had submitted the Addendum to SSA, it may have been able to detect that
the OH-BDD was not following the approved indirect cost methodology.

If SSA continues its current oversight process of indirect costs, the SSA regional office
may not be able to detect when the OH-BDD does not follow the approved indirect cost
methodology. Office of Management and Budget Circular A-123 Management
Accountability and Control, states stewardship of Federal resources is the fundamental
responsibility of each Federal agency.8 Accordingly, the SSA regional office should
have a process in place that ensures adequate oversight of indirect costs. In
developing such a process, the regional office should require DDSs to submit a
quarterly Form SSA-4513 Addendum that shows the indirect cost calculation (base
times the rate), the method used to calculate the base amount, and the details of
financial-related adjustments. Furthermore, the regional office should analyze the
indirect costs information provided on the Addendum and perform any follow-up work it
deems necessary.

UNLIQUIDATED OBLIGATIONS

OH-BDD reported unliquidated obligations for FYs 2001 and 2002 totaling
$1,782,112 that were not supported by valid documentation, such as purchase orders.9
SSA procedures state in part, that valid unliquidated obligations should be supported by
documents/records that describe the nature of the obligations and support the amounts
recorded. Furthermore, States must submit a quarterly Form SSA-4513 Addendum as
required by SSA instructions that includes an explanation of why unliquidated
obligations remain.10 During our audit period, OH-BDD did not provide SSA with the
quarterly Form SSA-4513 Addendums.




6
    Form SSA-4513 – State Agency Report of Obligations for SSA Disability Programs.
7
 POMS DI 39506.202 State Agency Report of Obligations for SSA Disability Programs – Form SSA-4513
and Form SSA-4513 Addendum.
8
    Revised June 21, 1995, Introduction.
9
  The amount of unliquidated obligations was obtained from the FY 2001 and FY 2002 Form SSA-4513s
for the quarter ended June 30, 2004.
10
     POMS DI 39506.203 Updating and Reconciling Unliquidated Obligations.
Page 4 – James F. Martin

OH-BDD personnel provided a statement in response to our request for documentation
to support its unliquidated obligations. It stated in part, “…It was found that while we
had business needs for the funds, as identified in monthly reports, for a variety of
reasons, such as operational circumstances and timing in varying business conditions,
the purchase orders were not processed at the appointed time. Some of these needs
still exist and we would like to retain the funds to use at a time conducive to operational
circumstances…”

The following table summarizes the unsupported unliquidated obligations for FYs 2001
and 2002.



                     UNSUPPORTED UNLIQUIDATED OBLIGATIONS

     Form SSA-4513
     Cost Category                      FY 2001                   FY 2002                       Total

Personnel Services                             $0                 $45,799                    $45,799

Medical                                   33,536                    49,710                    83,246

Non-Personnel                          927,885                   725,182                  1,653,067
                 Total               $961,42111                $820,69112                $1,782,112


Following our exit conference, the OH-BDD deobligated the $1,782,112 in unliquidated
obligations identified in our review. In February 2005, the OH-BDD submitted to the
SSA regional office Form SSA-4513s for FYs 2001 and 2002 that reflect a zero balance
for unliquidated obligations.

The SSA regional office stated that it reviews unliquidated obligations and makes DDS
inquiries when the reported amounts appear unusually high. We believe that the
regional office’s oversight of unliquidated obligations could be improved if it required the
OH-BDD to submit a quarterly Form SSA-4513 Addendum that includes an explanation
of unliquidated obligations that remain.




11
 The amount of FY 2001 unliquidated obligations reported to SSA remained relatively constant from
December 2002 through December 2004.
12
  The amount of FY 2002 unliquidated obligations reported to SSA remained relatively constant from
June 2003 through December 2004.
Page 5 – James F. Martin

CONCLUSIONS AND RECOMMENDATIONS
Our review of administrative costs disclosed that the OH-BDD claimed unallowable
indirect costs of $132,154. Furthermore, OH-BDD reported unliquidated obligations
totaling $1,782,112 that were not supported by sufficient documentation.

We recommend that SSA instruct the OH-BDD to:

1. Refund $132,154 for unallowable indirect costs.

2. Claim indirect costs in accordance with the methodology outlined in the approved
   CAP.

3. Submit the quarterly Form SSA-4513 Addendum to show the calculation of indirect
   costs, an explanation of unliquidated obligations and other information that it deems
   necessary to support the costs claimed on the Form SSA-4513.

AGENCY COMMENTS
In commenting on our draft report, SSA agreed with our recommendations. See
Appendix D for the full text of SSA’s comments.

STATE AGENCY COMMENTS
The OH-RSC generally agreed with our first and third recommendations. With regards
to our first recommendation, OH-RSC proposes that the $132,154 in unallowable
indirect costs be resolved by adjustments to future year’s indirect rate proposals instead
of a refund to SSA. OH-RSC did not agree with our conclusion that the $132,154 in
unallowable indirect costs occurred because it did not follow the terms of the approved
CAP and accordingly, did not agree with our second recommendation. Rather,
OH-RSC attributed the $132,154 in unallowable indirect costs to errors in its
reconciliation processes. See Appendix E for the full text of OH-RSC’s comments.
Page 6 – James F. Martin

OIG RESPONSE
We leave the method for resolving the $132,154 in unallowable indirect costs to the
discretion of SSA noting that any such method must be in compliance with applicable
Federal laws and regulations regarding Disability Determination Services funding. With
regards to our second recommendation, we remain committed to our conclusion that the
unallowable indirect costs occurred because they were not calculated in accordance
with the approved CAP. Specifically, the indirect costs base included costs that were
not specified in the approved CAP, which resulted in the $132,154 in unallowable costs.




                                        S
                                        Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Ohio Bureau of Disability Determination Indirect Costs

APPENDIX D – Agency Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                Appendix A
Acronyms
Act             Social Security Act
CAP             Cost Allocation Plan
CE              Consultative Examinations
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
FY              Fiscal Year
Form SSA-4513   State Agency Report of Obligations for SSA Disability Program
OH-BDD          Ohio Bureau of Disability Determination
OH-RSC          Ohio Rehabilitation Services Commission
POMS            Program Operations Manual System
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code
                                                                      Appendix B
Scope and Methodology
To achieve our objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s Program Operations Manual System DI 39500 DDS Fiscal
    and Administrative Management, and other instructions pertaining to administrative
    costs incurred by the Ohio Bureau of Disability Determination (OH-BDD) and the
    draw down of Social Security Administration (SSA) funds.

•   Reviewed single audit work performed by the State of Ohio internal auditors.
    Because of the limited scope of the single audit work performed at OH-BDD, we did
    not rely on the single audit work.

•   Interviewed staff at Ohio Rehabilitation Services Commission (OH-RSC), OH-BDD,
    and SSA Regional Office, Chicago, Illinois.

•   Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.

•   Evaluated and tested internal controls regarding accounting, financial reporting and
    cash management activities.

•   Tested the payroll records to ensure individuals were paid correctly and payroll was
    adequately documented.

•   Reviewed and reconciled the official State accounting records to the administrative
    costs reported by OH-BDD on the Form SSA-4513 for Fiscal Years (FY)
    2001 through 2002.

•   Examined the administrative expenditures (personnel, medical service, and all other
    nonpersonnel costs) incurred and claimed by OH-BDD for FYs 2001 through
    2002 on the Form SSA-4513. We used statistical sampling to select documents to
    test for support of the medical service and all other nonpersonnel costs.

•   Performed a crosswalk between OH-BDD, Medicare, and Ohio Bureau of Workers’
    Compensation rates of payment for consultative examinations.

•   Examined the indirect costs claimed by OH-BDD for FYs 2001 through 2002 and the
    corresponding OH-BDD Cost Allocation Plans.

•   Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the Form SSA-4513.


                                           B-1
•   Discussed indirect cost issues with the Department of Education, Division of Cost
    Allocation, Chicago, Illinois.

•   Reviewed limited areas of the OH-BDD physical security controls.

We concluded that the electronic data used in our audit was sufficiently reliable to
achieve our audit objectives. We assessed the reliability of the electronic data by
reconciling it with the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed audit work at the OH-BDD and the OH-RSC offices in Columbus, Ohio.
We conducted fieldwork from September 2003 through September 2004. The audit was
conducted in accordance with generally accepted government auditing standards.

METHODOLOGY
Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513: (1) personnel; (2) medical; (3) indirect; and (4) all other nonpersonnel
costs. We obtained computerized data from OH-BDD for FY 2001 and 2002 for use in
statistical sampling.

Personnel Costs

We randomly sampled 50 OH-BDD employees and 50 medical consultants from one
randomly selected pay period in the most recent year under review.

Medical Costs

We sampled 100 items (50 items each from FYs 2001 and 2002) using a stratified
random sample. We stratified medical costs into Medical Evidence of Record and
Consultative Examinations.

Indirect Costs

We judgmentally selected one period of costs used to compute the FY 2002 indirect
cost rates and conducted testing of the indirect cost rate calculation.




                                           B-2
All Other Nonpersonnel Costs

We selected a stratified random sample of 100 items (50 expenditures each from
FYs 2001 and 2002) of All Other Nonpersonnel costs. We stratified All Other
Nonpersonnel costs into eight cost categories: (1) Applicant Travel; (2) Staff Travel;
(3) Communications; (4) Equipment; (5) Supplies; (6) Contracting Out;
(7) Miscellaneous; and (8) Occupancy. We selected a stratified random sample of
50 items from each FY based on the percentage of costs in each category to total costs.




                                          B-3
                                                   Appendix C
Ohio Bureau of Disability Determination
Indirect Costs

                             Fiscal Year 2001
    Salaries and Fringe Benefits                $32,361,608
    Less Medical Consultants                      5,422,421
    Base Per Approved Cost Allocation Plan       26,939,187
    Approved Indirect Cost Rate                     27.50%
    Allowable Indirect Costs                      7,408,276
    Indirect Costs Claimed on Form SSA-4513       7,474,971
                   Unallowable Indirect Costs       $66,695



                             Fiscal Year 2002
    Salaries and Fringe Benefits                $35,844,413
    Less Medical Consultants                      5,944,275
    Base Per Approved Cost Allocation Plan       29,900,138
    Approved Indirect Cost Rate                        27%
    Allowable Indirect Costs                      8,073,037
    Indirect Costs Claimed on Form SSA-4513       8,138,496
                   Unallowable Indirect Costs       $65,459
                                                                            Appendix D
SSA Comments
From: Jamison, Jim
Sent: Monday, April 18, 2005 1:25 PM
To: ^OIG Audit; ^OIG Draft; ^OIG Controls
Cc: Jamison, Jim; ||CHI ARC MOS; ||CHI ARC MOS CMR; ||CHI ORC; ||CHI OIG Audit; ^DCDISP Audit;
^DCFAM AMLS Controls; ^DCO Audit; McMullen, Theresa; Cardenas, Arturo; Kayser, Jerry; Johnson,
Kathleen DDS Columbus; Schaefer, Karen
Subject: Comments on Draft Report -- Ohio DDS Administrative Costs Audit (A-05-04-14028)

MEMORANDUM


Date:      April 18, 2005                                                       Refer To: S2D5G2

To:        Inspector General

From:      Regional Commissioner
           Chicago

Subject:   Draft Report of Administrative Costs Claimed by the Ohio Bureau of Disability Determination
           Services (Your Request for Comments E-Mailed April 11, 2005) -- REPLY


           Thank-you for the opportunity to comment on the subject report (A-05-04-14028). We have
           completed our review and concur with all three of your staff’s findings.

           We appreciate the challenges and difficulties the audit team faced in reviewing a DDS the size
           of Ohio. For this audit, in particular, the audit team worked closely with my staff, conducting
           several conference calls and face-to-face meetings. We were able to resolve several
           potential findings during these pre-draft discussions, and reach consensus on the remaining
           three.

           Again, we want to acknowledge the efforts of your staff in conducting such a comprehensive
           review of DDS activities.

           Questions about this memorandum may be directed to Jim Jamison, Financial Management
           Team Leader, at 312-575-4212.



                                                        /s/
                                                    James F. Martin


           cc:   Deputy Commissioner for Operations
                 Deputy Commissioner for Finance Assessment and Management
                 Deputy Commissioner for Disability and Income Security Programs
                        Appendix E
State Agency Comments
400 E. Campus View Boulevard
Columbus, OH 43235

                                                          May 11, 2005


Mr. Patrick P. O’Carroll, Jr.
Social Security Administration
Office of the Inspector General
Baltimore, MD 21235-0001

Re: Audit Report A-05-04-14028

Dear Mr. O’Carroll,

The following comments are offered in response to the draft report entitled
“Administrative Costs Claimed by the Ohio Bureau of Disability Determination.”

Specifically, the OH-BDD concurs with the draft finding regarding unliquidated
obligations and has already returned the funds with one exception noted further in this
document. At the same time, the OH-BDD does not accept the draft language that the
indirect costs in question were unallowable and not in compliance with the CAP
methodology. The OH-BDD does acknowledge, however, that the there was an over
collection of funds. The over collections will be compensated for in future indirect cost
plans pending approval by the cognizant agency.

More detailed comments on both draft findings are offered below.

INDIRECT COSTS

The draft audit report issued by the Social Security Administration’s Office of the
Inspector General states that the OH-BDD claimed indirect costs for FY’s 2001 and
2002 that were not in accordance with the methodology outlined in the Cost Allocation
Plans approved by the United States Department of Education, resulting in the claiming
of unallowable indirect costs totaling $132,154 ($66,695 for FY 2001 and $65,459 for
FY 2002).

While the OH-BDD concurs with the final finding that indirect costs have been over-
recovered by the $132,154, we do not concur that the collection was the result of
claiming unallowable costs. It is the position of the agency that the reason the indirect
costs were over-recovered was the result of an error in calculating the Base Direct
Payroll Costs for the OH-BDD program during the reconciliation processes for both FY
2001 and FY 2002. Our indirect cost consultant generated this error upon which we



                                            E-1
relied to our detriment, and the reconciliation is not structured in a way to identify the
error, allowing it to continue. In addition, our annual consolidated state audits also never
picked up the error. These errors resulted in understatements of the carry forward
when final costs for FY’s 2001 and 2002 were reconciled. As a result, indirect cost
rates for FY’s 2003 and 2004 were overstated by the amount of the reconciliation errors,
effectively causing the OH-BDD to recoup costs over the course of the two-year period
that had already been fully recovered.

The federally approved Indirect Cost Rate Agreements for FY 2001 and FY 2002 state
that rates are “based on total direct personal services of all programs”, excluding the
salaries of the case review medical staff which are charged as consultants”. The State
of Ohio classifies all payroll, fringe and other payroll related costs as Payroll Expense
(Class 10), and the OH-BDD indirect cost rates conform to Ohio’s uniform accounting
definitions.

Ohio’s uniform chart of accounts breaks down items charged as payroll into specific
object codes. There are 36 individual elements in 7 categories, one of which is object
code 043 (See attached Object and Subobject Codes Definitions). The federal code for
these costs is 889. While SSA requires that object code 043 expenses to be reported
separately from payroll on the 4513 report, the State of Ohio requires that these costs
be classified as payroll expenses. Object code 043 expenses were therefore
appropriately included in the total payroll figure used in the plan to calculate the Indirect
Cost rates for both FY 2001 and FY 2002. They were erroneously excluded when the
reconciliations were done for both years. The same reconciliation error reoccurred in
FY 2003, which is not within the scope of this audit but will also be corrected.

The OH-BDD will continue to rely on the State’s uniform chart of accounts by including
federal code 889 expenses as a direct payroll expense in the calculation of the base for
determining indirect cost rates. Further, the OH-BDD will ensure that all direct payroll
expenses are also included in the reconciliation calculation for FY 2004 and subsequent
years. That will prevent a reoccurrence of this error.

As previously stated, the OH-BDD concurs that the program over-recovered a total of
$132,154 during FY’s 2001 and 2002. Because the over-recovery occurred over a
two-year period, the OH-BDD proposes to settle the over-recoveries through Roll
Forward Adjustments to the FY 2006 and FY 2007 Indirect Cost Rate Proposals. While
not required by this audit, the over-recovery adjustment for FY 2003 noted above will be
included in the proposal submitted for FY 2008. All three plans will be submitted for
approval to the cognizant agency, the U.S. Department of Education.


UNLIQUIDATED OBLIGATIONS

The OH-BDD concurs with the finding and has taken the action necessary to return the
unliquidated funds as cited in the draft audit report. It should be noted, however, that
the OH-BDD has reopened FY 2002 due to the discovery of a valid obligation to



                                             E-2
Dictaphone Corporation in the amount of $183,564.96 (See attached January 14, 2005
letter to Janet Major and the attached Reopening Report). FY 2002 will be closed
immediately after payment of this obligation.

On a final note, please be advised that I have taken steps to implement the final
recommendation on the draft audit report. Specifically, I have instructed the staff to
include the Form SSA-4513 Addendum with the quarterly submission beginning with the
report covering the time period from April through June of 2005. We will use the
addendum to document how indirect costs are calculated including explicitly identifying
costs that carry federal code 889. As well, we will use the addendum to offer a brief
explanation of outstanding obligations.

Questions regarding these comments can be addressed to Michael Martz, the Team
Leader of Support Services, at 614-438-1203.


                                                      Sincerely,



                                                      John M. Connelly
                                                      Executive Director


Enclosure

cc:
Michael Martz, Team Leader, Support Services
Kathleen Johnson, Director, Ohio Bureau of Disability Determination
Courtney Yoho, Audit Liaison, Ohio Rehabilitation Services Commission




                                                E-3
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
      Mark Bailey, Director, Central Audit Division (816) 936-5591

      Teresa S. Williams, Audit Manager (312) 353-0331

Acknowledgments

In addition to those named above:

      Elizabeth Juárez, Auditor

      Sherman Doss, Auditor

      Karis Gaukel, Auditor

      Khristan Kaufman, Auditor

      Doug Kelly, Auditor

      Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-04-14028.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
